                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A-08030012
                                                                                    11          Page 1 of 1



          We discovered a small amount of plagiarized text in the subjects' NSF proposal.1 After
          contacting the subjects, one of whom took full responsibility while blaming a student for having
          provided the text to him without citation, we referred the allegation to the subjects' Institution for
          investigation.

          The Institution provided a full report. The Investigation Committee determined that, although
          the text was copied without appropriate attribution, the evidence that was available did suggest
          that the student had provided the materials to the subject who, in turn, used the text in the
          proposal without checking it. The Institution's committee determined that the conduct of the
          subject was careless, but required the subject to develop a better policy for using the work of
          others.

          We determined that the Institution's report was thorough, complete, and fair. We concurred that
          in this case, the subject's intent was careless. Therefore, it is not research misconduct under
          NSF7sregulation. We wrote to the subject to suggest he be more careful in the future when using
          materials provided by another individual.

          This case is closed and no further action will be taken.
